March 19, 2010

JOSEPH D. MOELLER
MANAGER, REGULATORY REPORTING AND COST ANALYSIS

SUBJECT: Audit Report – Management of Special Studies
         (Report Number CRR-AR-10-002)

This report presents the results of our audit of the management of special studies
(Project Number 09RG020CRR000). Our objectives were to evaluate U. S. Postal
Service controls over special studies and efforts to comply with regulatory mandates
that affect special studies. The Postal Service uses these studies to attribute its costs to
the various categories of mail and special services and to develop workshare cost
avoidance estimates. The Postal Accountability and Enhancement Act of 2006 (the
Postal Act of 2006) requires the U.S. Postal Service Office of Inspector General (OIG)
to audit the data collection systems and procedures the Postal Service uses in their
pricing process. This self-initiated audit addresses financial and operational risk. See
Appendix A for additional information about this audit.

Conclusion

Controls over special studies are generally adequate to ensure that special studies are
updated with recurring data inputs. Specifically, management updates the studies with
recurring financial and operational information and coordinates changes to the studies
with the Postal Regulatory Commission (PRC). However, improvements are needed
over controls to ensure the studies are updated with non-recurring financial and
operational data. Additionally, the Postal Service complied with the regulatory mandate
to list the special studies and discuss whether the studies reflected current operating
conditions.

The Postal Service should prioritize updating the non-recurring data inputs in the special
studies. We identified 13 one-time studies or data collection efforts that could be
considered special studies. Those 13 are generally used to attribute Postal Service
costs to mail categories and special services. We selected for further evaluation the
oldest of the 13 studies, the Postmaster Variability Study, which was completed in 1984.
In addition to the Postmaster Variability Study, another seven studies were conducted in
the 1990s and may need to be updated. We also identified 18 other analyses that could
Management of Special Studies                                                            CRR-AR-10-002



be considered special studies. Primarily, those are cost models that are not one-time
studies but models that continually evolve. We judgmentally selected the Periodicals
Destination Entry Cost Avoidance Model, and found 24 data inputs in that model were
developed in the 1990s and may no longer be representative of operating conditions.
This older data was also used in other cost models. Updating non-recurring data inputs
used in cost models could help the Postal Service develop more accurate worksharing
cost avoidance estimates.

During our review, the Postal Service filed its FY 2009 Annual Compliance Report
(ACR) with the PRC. The report complied with the regulatory mandate1 to include a
listing of special studies and a discussion on whether they reflect current operating
conditions and procedures. The Postal Service had 26 special studies on their list and
they noted that there has not been a PRC rulemaking that provides a definition and
listing of special studies.

The Postal Service also noted that updating the Postmaster Variability Study was a low
priority, but the study could be replaced or updated as resources permit, to account for
changes in postmaster activities. The Postal Service further stated that the Periodicals
Destination Entry Cost Avoidance Model was based on a PRC methodology. All of the
dropship cost avoidance models, including the Periodicals Destination Entry Cost
Avoidance Model, would have to be examined in the future to ensure they accurately
reflect operations after network changes.

Postmaster Variability Study

The Postal Service has not updated the Postmaster Variability Study, completed in
1984, and it may not be representative of current postmaster variability.2 Specifically,
the analysis used FY 1979 postmaster salaries and FY 1978 Workload Service Credit
(WSC) Index data to determine that the estimated postmaster variability was 18.23
percent. For example, the minimum postmaster salary for Executive and Administrative
Schedule (EAS)-233 increased from $22,500 in 1979 to $52,433 in 2008. To the extent
that postmaster salaries and WSCs have changed in the past 30 years, the study may
not be representative of postmaster variability. Only a new study can provide a more
accurate estimate of postmaster variability.

A relatively small change in the postmaster variability estimate can have a significant
impact in the attribution of volume variable postmaster costs. For example, a 5 percent
change in postmaster variability will increase or decrease the volume variable costs by
approximately $39.9 million over a 2-year period. We consider this $39.9 million to be a


1
  Notice of Final Rule Prescribing Form and Content of Periodic Reports, Section 3050.12, Obsolescence of Special
Studies Relied on to Produce the Postal Service’s Annual Periodic Reports to the Commission, April 16, 2009.
2
  The degree to which postmaster costs vary in relation to mail volume.
3
  The 1984 study was based on postmaster salaries EAS-22 and below, which has since changed to include EAS-23
and below.




                                                        2
Management of Special Studies                                                                 CRR-AR-10-002



potential misallocation of costs.4 See Appendix D for details on this non-monetary
impact. This potential cost misallocation could affect the integrity of Postal Service cost
and pricing estimates. Further, more accurate cost allocation and pricing estimates
could assist in maintaining stakeholder confidence and goodwill in the processes the
Postal Service uses to price its products and services.

The PRC accepted the Postmaster Variability Study in 1984, but recommended the
Postal Service conduct a new study using a different costing approach. The PRC
recommended the Postal Service update the study with current salary and WSC data in
subsequent rate cases if it did not conduct a new study. In 1997 and again in 2007, the
Postal Service considered conducting a new study; however, management stated they
set aside the study due to higher priority work. Postal Service personnel stated they are
awaiting PRC guidance to prioritize updating the Postmaster Variability Study as well as
other special studies. See Appendix B for our detailed analysis of this topic.

We recommend the manager, Regulatory Reporting and Cost Analysis, direct the
manager, Cost Attribution, to:

1. Develop a plan for the timely update of the Postmaster Variability Study.

Periodicals Destination Entry Cost Avoidance Model

The Periodicals Destination Entry Cost Avoidance Model contains non-recurring data
inputs that may not be representative of current operating conditions. We found the
Postal Service developed 24 of the 46 data inputs in the model in the 1980s and 1990s.
Specifically, the agency developed two productivities,5 two conversion factors,6 and
three mail flow percentages7 from a 1984 study. An additional 12 productivities were
from a 1996 field study conducted at six bulk mail centers (BMCs). Finally, one facility
factor and four mail volume proportion8 inputs were developed in the early to mid-
1990s.

The productivities and volume proportions from the above-mentioned field studies are
also used as data inputs 77 times in six additional special studies cost models. To the
extent the non-recurring data inputs are not representative of current operating
conditions, the workshare cost-avoidance estimates and discounts based on those
models may be inaccurate. To estimate how changes in non-recurring data inputs can
affect cost avoidance estimates, we performed a sensitivity analysis on each data input.

4
  A misallocation of costs can occur when Postal Service costs are misclassified as volume variable, product specific,
or institutional costs.
5
  Productivities are the number of items (mailpieces, sacks, or containers) handled per man-hour.
6
  Container conversion factors involve the number of sacks per in-house container and per BMC container.
7
  Sack sorting machine mail flow percentages involve the sorting of sacks to vans, in-house containers, and BMC
containers.
8
  Proportions are a percentage of mail that is processed to a certain sort. For example, 75 percent of the mail is
sorted to the Destination Sectional Center Facility (DSCF) level while 25 percent is sorted to the Destination Delivery
Unit (DDU) level.




                                                           3
Management of Special Studies                                                              CRR-AR-10-002



We varied each input by 5 percent and estimated that the effect on the cost-avoidance
estimates ranged from no effect for certain productivities to approximately $2 million for
a facility factor.9 This 5 percent change in one data input, holding all other inputs equal,
can affect cost-avoidance estimates by $4 million over a 2-year period. We consider this
$4 million to a potential misallocation of costs. See Appendix F for details on this non-
monetary impact. This potential cost misallocation could affect the integrity of Postal
Service cost and pricing estimates.

Postal Service personnel stated they are awaiting PRC guidance to prioritize updating
the non-recurring data inputs. Additionally, the impact recent operational changes have
on the special studies will be evaluated when the changes are fully implemented. See
Appendix B for our detailed analysis of this topic.

We recommend the manager, Regulatory Reporting and Cost Analysis, direct the
manager, Special Studies, to:

2. Identify non-recurring data inputs that should be updated in each cost model.

3. Update the non-recurring data inputs or identify cost-effective alternative methods to
   obtain the necessary cost allocation information and update the cost models
   accordingly.

Management’s Comments

Management agreed with the findings and recommendations. In response to
recommendation 1, management will develop steps needed to update the Postmaster
Variability Study. In response to recommendation 2, management indicated they
identified recurring and non-recurring inputs in the studies and provided that information
to the PRC. In response to recommendation 3, management stated they were awaiting
PRC guidance in the strategic rulemaking to prioritize study updates. Management
further stated that the presentation of certain data in Table 4 of the report could be
misleading to readers. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to all the recommendations
and management’s corrective actions should resolve the issues identified in the report.
The strategic rulemaking, initiated by the PRC, is still scheduled for FY 2010. The
strategic rulemaking should assist the Postal Service in prioritizing updates of the
studies and data. Based on management’s comments regarding Table 4, we clarified
the narrative description of the table.


9
 Because of the complexity of the model and the interrelationships among the data inputs, we did not estimate an
overall non-monetary impact on revenue from uniformly increasing or decreasing all the data inputs at once by 5
percent.




                                                         4
Management of Special Studies                                          CRR-AR-10-002



We consider recommendation 1 significant, and therefore require OIG concurrence
before closure. Consequently, the OIG requests written confirmation when corrective
actions are completed. These recommendations should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, director, or me
at 703-248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
for Revenue and Systems

Attachments

cc: Joseph Corbett
    Virginia Mayes
    Jeffrey Colvin
    Sally K. Haring




                                            5
Management of Special Studies                                                                 CRR-AR-10-002



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

For FY 2009, we identified 31 analyses that could be considered Postal Service special
studies. In general, the studies can be divided into two groups. The first type of special
study includes 13 studies that are a one-time analyses or data collection efforts. This
type of special study has an established completion date and is primarily used to
attribute costs to the various categories of mail and special services. These cost
attribution studies often involve substantial fieldwork or analyses to develop the cost
variabilities and distribution factors needed to attribute and distribute costs to different
categories of mail and special services. Examples include studies to determine
postmaster variability or city carrier street time activity. Management does not update or
revalidate these special studies annually, but ultimately replaces them with new or
updated special studies.

The second type of special study includes 18 cost model special studies. These cost
models are used to develop workshare cost avoidance estimates that help determine
workshare discounts rates. Cost model special studies are generally not one-time
studies, but rather cost models that have evolved over time. Depending on their
complexity, these cost models can have hundreds of recurring and non-recurring data
inputs. The Postal Service updates recurring data inputs annually, examples include
cost data from accounting records, wage rates, mail processing costs by shape,
piggyback factors,10 and Management Operating Data System (MODS) data. While the
recurring data inputs are updated annually, the non-recurring data inputs are generally
updated when there are operational or productivity changes that affect the models.
Updating non-recurring data inputs generally requires additional fieldwork or analysis.
Appendix C lists each special study and the date the Postal Service completed it or first
filed it with the PRC.

The Postmaster Variability Study is an econometric analysis used to estimate the
degree to which EAS-23 and lower level postmaster costs vary in relation to changes in
mail volume. The rationale behind this study was that management could estimate the
volume-variable costs of EAS-23 and lower level postmasters11 by determining the
average change in salary of postmasters due to a change in the level of activity as
measured by the WSC index.12



10
   Piggyback factors are employed in cost studies to augment labor cost estimates and add costs associated with
supervisors, administration, the facility, and equipment. A piggyback factor is, in general terms, the ratio of total
volume variable costs to volume variable labor costs for a specific function or operation.
11
   Postmaster EAS-24 and above costs are assumed to be 100 percent institutional (or fixed) in that their duties and
responsibilities are not directly related to changes in mail volume.
12
   The WSC is part of the Expanded Postmaster Criteria System (EPCS). The EPCS is a system the Postal Service
uses to determine postmasters’ pay according to a unitary system involving nine workload criteria. It evaluates, ranks,
and classifies postmaster positions by an index of WSCs.




                                                           6
Management of Special Studies                                                            CRR-AR-10-002



Based on the results of the study, the Postal Service estimated that EAS-22 and lower
level postmaster costs were 18.23 percent volume variable. Management applies that
percentage to the total accrued costs for EAS-23 and lower level postmasters to
determine the total volume-variable costs. The Postal Service then distributes those
costs to mail categories and special services. In FY 2008, total EAS-23 and lower level
postmaster costs were $2.2 billion and, based on the study, about $399 million (18.23
percent) of those costs were estimated to be volume-variable.

The Periodicals Destination Entry Cost Avoidance Model is used to develop destination
entry cost avoidance estimates for Periodicals mail delivered to various Postal Service
facilities.13 As with other Postal Service market-dominant products, any price increases
to Periodicals is limited to the Consumer Price Index-All Urban Areas.

A manager and five analysts in the Special Studies group are responsible for cost
model special studies. A manager and 10 analysts in the Cost Attribution group are
responsible for cost attribution special studies. Both groups report to the manager,
Regulatory Reporting and Cost Analysis, within Finance.

The PRC is an independent agency with regulatory oversight of the Postal Service. The
Postal Act of 2006 gave the PRC additional information-gathering and reporting
functions. In April 2009, to implement these new functions, the PRC issued a ruling
governing the obsolescence of special studies.14 The ruling directed the Postal Service
to annually provide a list of special studies and indicate the completion date and
whether the study reflects current operating conditions and procedures. The PRC also
indicated that it would address the issue of obsolescent special studies as part of a
future strategic rulemaking that would evaluate and prioritize the cost of research
needed to update the special studies.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to evaluate Postal Service controls over special studies and efforts
to comply with regulatory mandates that affect special studies.

To assess controls over special studies, we interviewed managers and staff analysts in
the Special Studies and Cost Attribution groups. Additionally, we reviewed FY 2009
changes to special studies documented in PRC rulemaking proceedings.

To assess efforts to comply with regulatory mandates, we interviewed Postal Service
managers and PRC staff and inventoried special studies and cost models used as
inputs into the ACR.



13
  Destination Bulk Mail Center (DBMC), DSCF, and DDU.
14
  Notice of Final Rule Prescribing Form and Content of Periodic Reports, Section 3050.12, Obsolescence of Special
Studies Relied on to Produce the Postal Service’s Annual Periodic Reports to the Commission, April 16, 2009.




                                                        7
Management of Special Studies                                         CRR-AR-10-002



To examine controls over updating special studies, we selected for review one cost
attribution special study and one cost model special study. We selected the Postmaster
Variability Study for review because it was the oldest cost attribution special study. We
judgmentally selected the Periodicals Destination Entry Cost Avoidance Model for
review based on prior and planned OIG work involving the workshare cost avoidance
models, which are impacted by the Periodicals Destination Entry Cost Avoidance
Model.

To determine whether management updated the Postmaster Variability Study, we
analyzed postmaster salary and WSC data used in the study and compared that data to
current salary and WSC data. We also reviewed PRC proceedings that addressed the
study and interviewed managers and analysts responsible for it.

To determine whether management updated the Periodicals Destination Entry Cost
Avoidance Model, we identified data input into the model and traced the origin of those
data inputs in prior PRC proceedings. To assess whether the model reflected current
operating conditions, we verified that MODS operation numbers used in the model were
active operation numbers.

We conducted this performance audit from May 2009 through March 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on December 16, 2009, and
included their comments where appropriate.




                                            8
     Management of Special Studies                                             CRR-AR-10-002



     PRIOR AUDIT COVERAGE

                                     Final Report       Monetary
 Report Title     Report Number          Date            Impact                Report Results
Data Quality      CRR-AR-09-001       1/21/2009           None     The sample design for the City
Issues with                                                        Carrier Street Time Study appears to
the City                                                           be reasonable. However, the data
Carrier Street                                                     collection process needed better
Time Study                                                         documentation and control.
                                                                   Numerous data quality issues
                                                                   remained in the data records even
                                                                   after a rigorous data cleansing effort.
                                                                   Additionally, the Postal Service did
                                                                   not control or document the data
                                                                   cleansing process very well and the
                                                                   survey data is now more than 6 years
                                                                   old. Management generally agreed
                                                                   with the findings but stated that the
                                                                   study was large enough that missing
                                                                   or some incorrect data would not
                                                                   materially impact the results and the
                                                                   PRC accepted it. Management
                                                                   agreed with all recommendations.




                                                    9
Management of Special Studies                                            CRR-AR-10-002



                            APPENDIX B: DETAILED ANALYSIS

Postmaster Variability Study

The Postal Service has not updated the Postmaster Variability Study, an econometric
analysis relied upon since 1984 to attribute postmaster volume variable costs to Postal
Service mail categories and services, and it may not be representative of current
postmaster variability. For example, in performing a regression analysis of how EAS-23
and lower level postmaster costs vary in relation to changes in mail volume, the Postal
Service used the 1979 postmaster salary at each grade level as the dependent variable
and the 1978 postmaster WSC Index as the independent variable. However, postmaster
salaries have more than doubled since 1979, as shown in Table 1, and there have been
modifications to the WSC Index.

               Table 1. Minimum Postmaster Salaries, FY 1979 and 2008

                                           Minimum Postmaster Salaries
                                                               Percentage
                EAS Grade Levels         FY 1979     FY 2008    Increase
                          A               $3,063     $7,201        235
                          C                6,123      14,402       235
                          E                9,186      21,603       235
                         11               12,400      31,102       251
                         13               13,800      34,115       247
                         15               15,400      37,862       246
                         18               18,100      42,743       236
                         20               20,200      47,197       234
                         21               21,300      49,490       232
                      22/23               22,500      52,433       233
              Average Minimum Salary     $14,207    $33,815        238

The WSC Index has also been modified, although overall WSC factors have not
changed. The WSC Index evaluates postmaster workload by activity and revenue unit
factors. These factors reflect various associate offices’ functional activities performed in
connection with window, lobby, and delivery services; mail processing, distribution, and
collection; and general administration. Improvements in automation and other
technological advances have likely altered the postmasters’ functions to some degree.
A small change in postmaster variability can affect the attribution of volume-variable
costs to mail categories and special services. We conducted a sensitivity analysis that
increased/decreased the 18.23 percent variability by 5 percent. At 5 percent, the
change in postmaster variability results in a $19.9 million difference in FY 2008
postmaster costs attributed to mail categories and special services. See Appendix D for
more details on the sensitivity analysis.




                                             10
Management of Special Studies                                                                    CRR-AR-10-002



When the Postal Service introduced the Postmaster Variability Study in the 198415 and
198716 rate cases, the PRC recommended the agency conduct a new study using a
different methodology. At a minimum, as an alternative, the PRC recommended the
Postal Service update the econometric analysis in subsequent rate cases with updated
postmaster salaries and WSC Index data.

Management stated they did not update the data in subsequent rate cases because
they planned, at various times, to conduct a new study using a different cost
methodology. In 1997 and again in 2007, they made preliminary plans to conduct a new
study, but stopped because of higher priority work. Currently, the Postal Service is
waiting on PRC guidance to prioritize the updating of all special studies. The PRC is
planning a strategic rulemaking designed to evaluate whether management needs to
update the special studies or replace them with new studies, and to prioritize the Postal
Service work updating and conducting the studies. An updated Postmaster Variability
Study could assist management in ensuring that postmaster volume variable costs are
identified and accurately attributed to mail categories and special services.

Periodicals Destination Entry Cost Avoidance Model

Non-Recurring Inputs Not Representative

The Periodicals Destination Entry Cost Avoidance Model contains data inputs that may
not be representative of current operating conditions. The model has 46 data inputs, 22
of those data inputs are recurring financial and operational data17 that management
updates annually. The other 24 data inputs are non-recurring data that may not be
representative of current operating conditions. The Postal Service first developed the
model in 1984 and has adjusted it over the years to account for new equipment and/or
processes. However, the 24 non-recurring data inputs18 in the model were first
developed in field studies conducted in the 1980s and 1990s and are updated only
when a new field study is conducted. See Appendix E for a complete list of the 46 data
inputs.

Development of Non-Recurring Data Inputs

Seven of the 24 non-recurring data inputs were developed in a 198419 field study that
relied on a publisher’s survey and econometric analysis. The seven inputs included two
productivities, two conversion factors, and three sack sorting machine mail flow



15
   PRC Docket R84-1.
16
   PRC Docket R87-1.
17
   These data inputs include wage rates, piggyback factors, premium pay factors, pieces per pound, pieces per
sack/pallet, and certain productivities for automated sack sorting machines.
18
   These data inputs are primarily productivities for allied operations, facility factors, volume proportions, container
conversion factors, and mail flow percentages.
19
   PRC Docket R97-1, USPS-LR-H-111 & Docket R84-1, USPS-T-14.




                                                            11
Management of Special Studies                                                       CRR-AR-10-002



percentages. Twelve of the 24 non-recurring data inputs were productivities developed
in a 199620 field study conducted at six BMCs.

Finally, one facility factor and four mail volume proportion data inputs are based on
fieldwork studies conducted about 1990. The BMC Realization Factor is a facility factor
that measures the efficiency at a BMC, calculated as the total direct labor hours
“earned” for all mail processing operations divided by total direct labor hours “clocked”
for the same operations over the same time period. The four mail volume proportions
include the proportion of volume from destinating BMCs going directly to DSCFs and
DDUs and the proportion of DSCFs that are mechanized to those that are not
mechanized. The Postal Service has not updated the mail volume proportions since
they were first introduced in the 1990 rate and 1995 mail classification cases.21

Non-Recurring Inputs in Other Special Studies

The productivities and volume proportions from the 1984, 1990, and 1996 studies are
also used as a non-recurring data input in six additional special studies. In total, the
productivities and volume proportions are used 77 times in the six cost models. Table 2
lists the special studies and the non-recurring data inputs from the 1984, 1990, or 1996
sources.

                                        Table 2. Special Studies

                                                                              Data Inputs from
                               Special Study                                      Studies
         Bound Printed Matter Mail Processing Cost Model                           11
         Media Mail Processing Cost Model                                          11
         Bulk Parcel Return Service Cost Model                                      14 
         Standard Parcels Mail Processing Cost Model                                13 
         Standard Letters Destination Entry Cost Avoidance Model                    14
         Standard Flats Destination Entry Cost Avoidance Model                      14
         Total:                                                                     77

Under a Postal Service network realignment plan, BMCs are being transformed into
network distribution centers (NDCs) that will consolidate the processing and dispatch of
originating mail and reduce transportation costs. The new network, when fully
implemented, will replace BMCs with three types of NDC facilities. Each type of NDC
facility will have various level of processing and distribution functions. Management
stated that, once the NDC activation is complete, they will determine whether
operational changes impact the models.

To estimate how changes in Periodicals Destination Entry Cost Avoidance Model inputs
can impact the resulting cost-avoidance estimates, we performed a sensitivity analysis

20
     PRC Docket R97-1, USPS-LR-H-132.
21
     PRC Docket R90-1, Exhibit USPS-T-12B; and Docket MC95-1, Exhibit USPS-T-11U.




                                                      12
Management of Special Studies                                                              CRR-AR-10-002



on each of the 24 inputs developed in the 1990s. We varied each input by 5 percent,
and estimated that the effect on the cost-avoidance estimates ranged from no effect for
certain productivities to approximately $2 million for the BMC Realization Factor.22 In
addition to the impact on cost-avoidance estimates, inaccurate data inputs could also
impact the integrity of the data used to develop workshare discounts. See Appendix F
for details of the sensitivity analysis.

More accurate estimates for the data inputs would have to come from updated field
studies. The importance of the data in terms of the effect on the results of the study
should be considered (e.g., whether updated data would significantly change the model
and cost-avoidance estimates). Also, the cost in terms of dollars and resources spent
collecting data should be considered to determine if it is beneficial to update the study.
Management stated that it may need to update the Periodicals Destination Entry Cost
Avoidance Model, as well as other cost models, based on changes underway to the
Postal Service network. Management also stated that unless the PRC, the Postal
Service, or other interested parties make a compelling argument that the data inputs do
not represent current postal operations, it would not immediately change the data inputs
and cost models. The Postal Service is awaiting guidance from the PRC on prioritizing
study and data updates.

Identifying non-representative data inputs in each cost model and collaborating with the
PRC in the strategic rulemaking to prioritize updating the non-representative data inputs
will help the Postal Service more accurately determine cost avoidance and workshare
discount estimates.




22
  Because of the complexity of the model and the interrelationships among the data inputs, we did not estimate an
overall non-monetary impact on revenue from uniformly increasing or decreasing all the data inputs at once by 5
percent.




                                                        13
Management of Special Studies                                            CRR-AR-10-002



                           APPENDIX C: LISTS OF SPECIAL STUDIES

Tables 4 and 5 list the cost attribution and cost model special studies, respectively, and
the rate or classification case or annual compliance report when the models were first
filed. For the cost attribution special studies, we also list the year the Postal Service
conducted the study.

                          Table 3. Cost Attribution Special Studies

                                                          Year         First
                                  Study                Conducted       Filed
                Postmaster Variability Study             1984         R84-1
                Special Purpose Route Study              1997         R97-1
                Vehicle Service Driver Study             1993         R97-1
                Alaska Preferential Study                1994         R97-1
                Alaska Non-Preferential Study            1994         R97-1
                Hawaii Study                             1994         MC–97
                Highway Variability Study                1999         R2000-1
                Surface Densities Study                  20011        R2001-1
                City Carrier Cost Street Time Study      2002         R2005-1
                Facility Space Survey                    1999         R2005-1
                Highway Plant Load Study                 2003         R2005-1
                Rail Plant Load Study                    2003         R2005-1
                Retail Window Transaction Time Study     2005         R2006-1
               1
                   Updated in FY 2010

The cost model special studies listed in Table 4 are generally not one-time studies, but
rather cost models that have evolved over time. The current cost models may not bear
any resemblance to the cost models that were originally introduced. For example, the
First-Class Letters cost model was first introduced in PRC Docket R76-1. However, the
model has been reworked several times since then including PRC Docket R2001-1.
Table 4 lists the special studies and the PRC docket where the study was first filed.




                                                14
Management of Special Studies                                            CRR-AR-10-002




                            Table 4. Cost Model Special Studies

                                                                      Docket First
                                         Study                           Filed
            First-Class Letters Cost Model                               R76-1
            Standard Regular Letters Cost Model                          R84-1
            First-Class Presort Flats Cost Model                         R94-1
            Standard Regular Flats Cost Model                            R94-1
            Periodicals Outside County Flats Cost Model                  R94-1
            Standard Mail Hybrid/Parcel Cost Study                      R2006-1
            Periodicals Destination Entry Cost Avoidance Model           R84-1
            Standard Letters Destination Entry Cost Avoidance Model      R90-1
            Standard Flats Destination Entry Cost Avoidance Model        R90-1
            Bound Printed Matter Mail Processing Cost Model              R76-1
            Media Mail: Mail Processing Cost Model                       R76-1
            Bound Printed Matter Transportation Cost Model               R97-1
            Bulk Parcel Return Service Cost Study                        R97-1
            Enhanced Carrier Route Mail Processing Unit Costs           R2001-1
            Qualified Business Reply Mail and BRM Costs                 R2001-1
            Bound Printed Matter Mail Processing Costs                  R2001-1
            Special Services (Public Portion)                           R2006-1
            Delinked First Class Mail Workshare Estimates               R2006-1




                                                15
Management of Special Studies                                                                   CRR-AR-10-002



             APPENDIX D: POSTMASTER VARIABILITY SENSITIVITY ANALYSIS

We conducted a sensitivity analysis of costs for EAS-23 and below postmasters that
increased/decreased the 18.23 percent variability by +/- 5 percent.23 At 5 percent, the
percentile change ranges from 17.32 to 19.14 percent. This 5 percent change in
variability results in a $19.9 million difference (+/-) in FY 2008 postmaster volume
variable costs. Under this scenario, the postmaster FY 2008 volume variable costs of
$399 million would be under- or overstated by $19.9 million a year, or approximately
$39.9 million over a 2-year period. A misallocation of postmaster volume variable costs
could affect Postal Service rates and cost coverages for mail categories and special
services. Table 5 shows the sensitivity analysis calculations using FY 2008 cost data.

                     Table 5. Sensitivity Analysis: FY 2008 Postmaster Costs


                         Postmaster Costs                                     Percentage           Amount
      (1) Total Accrued Cost of EAS-23 and below                                                $2,189,946,000
      (2) Current Variability                                                     18.23
          Volume Variable Cost (1) x (2)                                                            399,227,000

      Change in Variability
       5 percent decrease ($2,189,946,000 x 17.32 percent)                        17.32             379,299,000
       5 percent increase ($2,189,946,000 x 19.14 percent)                        19.14             419,156,000

      Annual Impact ($419,156,000 – 399,227,000)                                                     19,929,000
      2-Year Impact ($19,929,000 x 2)                                                               $39,858,000

                                        Table 6. Non-Monetary Impact


                    Finding                           Impact Category                             Amount
                      One                      Misallocation of Costs                              $39,858,000


                                               Total                                               $39,858,000




23
     The OIG uses 5 percent to estimate potential cost misallocations and a 2-year period to report potential impact.




                                                            16
Management of Special Studies                                                     CRR-AR-10-002



  APPENDIX E: PERIODICALS DESTINATION ENTRY COST AVOIDANCE MODEL
                               INPUTS

Table 7 lists the 46 data inputs into the Periodicals Destination Entry Cost Avoidance
Model. For the 24 non-recurring data inputs, the source is the PRC docket where the
data input was first introduced. For the 22 recurring data inputs, the source is the most
recent update, which was the Postal Service’s FY 2009 ACR, filed in December 2009.

                         Table 7. List of Model Inputs and Sources

                                   Productivities                                  Source
              Unload sacks from van to in-house container (IHC) -
        1     Sectional Center Facility (SCF)                                Docket No. R97-1
              Move all-purpose container (APC), IHC to outbound dock –
        2     SCF                                                            Docket No. R97-1
        3     Load sacks to van from IHC – BMC                               Docket No. R97-1
        4     Unload sacks to conveyor - SCF                                 Docket No. R97-1
        5     Load sacks to van from extendible conveyor - SCF               Docket No. R97-1
        6     Sack sorter – SCF                                              ACR 2009
        7     Unload pallets – BMC                                           Docket No. R97-1
        8     Move pallets to outbound dock - SCF                            Docket No. R97-1
        9     Load pallets to van – BMC                                      Docket No. R97-1
       10     Unload sacks to extendible conveyor - BMC                      Docket No. R97-1
       11     Load sacks to van from extendible conveyor - BMC               Docket No. R97-1
       12     Load wheeled containers to van - BMC                           Docket No. R97-1
       13     Load sacks from roller table to IHC - BMC                      Docket No. R97-1
       14     Sack sorter – BMC                                              ACR 2009
       15     Crossdock pallets – BMC                                        Docket No. R97-1
       16     Primary Non Machinable Outside (NMO) item sort - BMC           ACR 2009
       17     Secondary NMO sort - BMC, SCF                                  ACR 2009
       18     Load NMOs to van from IHC - BMC                                Docket No. R97-1
            CONTAINER CONVERSION FACTORS
       19     Sacks per IHC                                                  Docket No. R97-1
       20     Sacks per BMC container                                        Docket No. R97-1
            SACK SORTING MACHINE MAILFLOW
              Sack Sorter Machine (SSM) to load to van from extendible
       21     conveyor                                                       Docket No. R97-1
              SSM to roller table to BMC containers and load BMC
       22     containers to van                                              Docket No. R97-1
              SSM to roller table to in-house containers and load sacks to
       23     van from IHCs                                                  Docket No. R97-1




                                                    17
Management of Special Studies                                                 CRR-AR-10-002




                                   Productivities                              Source
            PIGGYBACK FACTORS
       24     Piggyback Factor for Sack Sorters at BMCs                  ACR 2009
       25     Piggyback Factor for Sack Sorters at Non-BMCs              ACR 2009
       26     Piggyback Factor for Platform at BMCs                      ACR 2009
              Piggyback Factor for Platform at Non-BMCs MODS
       27     Facilities                                                 ACR 2009
              Piggyback Factor for Platform at Non-BMCs Non-MODS
       28     Facilities                                                 ACR 2009
       29     Piggyback Factor for Opening Units                         ACR 2009
       30     Piggyback Factor for Other Mail Processing – BMCs          ACR 2009
            PAY FACTORS/WAGE RATES
              FY 2008 Other Mail Processing Productive Hourly Wage
       31     Rate                                                       ACR 2009
       32     FY 2008 Premium Pay Factor for All Facilities              ACR 2009
       33     FY 2008 Premium Pay Factor for Non-BMC Facilities          ACR 2009
            PROPORTIONS
       34     Proportion of SCFs That Are Mechanized                     Docket No. MC95-1
       35     Proportion of SCFs That Are Not Mechanized                 Docket No. MC95-1

       36     Proportion of Volume from DBMCs to DDUs via DSCFs          Docket No. R90-1
       37     Proportion of Volume from DBMCs Directly to DDUs           Docket No. R90-1
       38     Proportion of Volume Bypassing DADC                        Docket No. R2006-1
       39     Proportion of Volume Not Bypassing DADC                    Docket No. R2006-1
       40     Proportion of Periodicals Mail in Sacks                    ACR 2009
       41     Proportion of Periodicals Mail on Pallets                  ACR 2009
            OTHER INPUTS
       42     Periodical Pieces per Sack                                 ACR 2009
       43     Periodical Pieces per Pallet                               ACR 2009

       44     FY 2008 Pieces per Pound for Outside County Publications   ACR 2009

       45     FY 2008 Pieces per Pound for Total Periodicals             ACR 2009
       46     BMC Realization Factor                                     Docket No. R94-1




                                                    18
Management of Special Studies                                                             CRR-AR-10-002



     APPENDIX F: SENSITIVITY ANALYSIS OF PERIODICALS DESTINATION ENTRY
                       COST AVOIDANCE MODEL INPUTS

To estimate how changes in Periodicals Destination Entry Cost Avoidance Model inputs
can affect the resulting cost-avoidance estimates, we performed a sensitivity analysis
on each of the 24 inputs developed in the 1990s. We varied each input by 5 percent,
and calculated the effect each 5 percent change had on the cost-avoidance estimates.
The impact on cost-avoidance estimates ranged from no effect for certain productivities
to about $2 million for the BMC Realization Factor. Because it was unlikely that the 24
data inputs would uniformly increase or decrease by 5 percent, we did not calculate a
total impact.

The Periodicals Destination Entry Cost Avoidance Model estimates for FY 2008 were
used to develop Periodicals workshare discounts and pass-through. The model
provided three estimates for Destination Automated Distribution Centers (DADC),
DSCF, and DDU.

When we varied the BMC Realization Factor by 5 percent,24 the resulting cost-per-
pound estimates changed from 1.2 percent for DDUs to 9.9 percent for DADCs, as
shown in Table 8.

                         Table 8. Change in Cost-Per-Pound Estimates

                                                       Cost Per Pound
                                                  Estimate Based
                                                   on 5 Percent
            Non-                                 Increase to BMC Difference
        Transportation           Current            Realization        in     Percent
         Cost Element           Estimate*             Factor*      Estimate* Difference
        DADC                     $0.0081              $0.0089       $0.0008     9.87
        DSCF                     $0.0328              $0.0336       $0.0008     2.53
        DDU                      $0.0702              $0.0710       $0.0008     1.21
         *Rounded to four decimals.

To estimate the potential impact on cost-avoidance estimates for the change in the
BMC Realization Factor, we multiplied the difference in cost-per-pound estimates by the
FY 2008 Periodicals weight estimates, as shown in Table 9.




24
  The BMC Realization Factor was increased by 2.98 percent, from 0.971 to 1.00, because by definition it cannot be
greater than 1.0. Increasing the current factor by 5 percent would cause the factor to be 1.01955.




                                                        19
Management of Special Studies                                            CRR-AR-10-002




                      Table 9. Impact on Cost-Avoidance Estimates

                                  FY 2008
                                Periodicals
                     Non-         Weight                           Impact on
                Transportation Estimate (in        Difference in     Cost
                 Cost Element     pounds)           Estimate*      Avoidance
                DADC             398,628,697          $0.0008        $319,604
                DSCF           1,990,493,289          $0.0008        1,647,629
                DDU               26,064,866          $0.0008           22,068
                Totals            2,415,186,852                     $1,989,301
               *Rounded to four decimals

We obtained the weight estimates from the FY 2008 billing determinants for periodicals.
This includes Advertising and Editorial pounds for Regular, Non-Profit, and Classroom
rates, as shown in Table 10.

                     Table 10. FY 2008 Periodicals Weight Estimates

                                 Periodicals Rate Class
                           Regular       Non-Profit   Classroom       Total
        Advertising Pounds
        DADC               156,644,606    13,145,171      361,550   170,151,327
        DSCF               817,539,154    77,417,945    2,241,319   897,198,418
        DDU                 14,298,312       281,069        4,173    14,583,554
        Editorial Pounds
        DADC               198,336,412    28,956,204    1,184,755   228,477,370
        DSCF               930,060,686 157,586,938      5,647,248 1,093,294,872
        DDU                 10,377,696     1,086,667       16,948    11,481,312
        Subtotals
        DADC               354,981,018    42,101,375    1,546,304   398,628,697
        DSCF             1,747,599,839 235,004,883      7,888,567 1,990,493,289
        DDU                 24,676,008     1,367,737       21,121    26,064,866

        Total Pounds        2,127,256,865   278,473,995     9,455,992 2,415,186,852




                                              20
Management of Special Studies                                         CRR-AR-10-002




Of the 24 data inputs, the BMC realization factor has the greatest impact on cost-
avoidance estimates. We consider this $2 million impact a potential cost misallocation of
$4 million over a 2-year period.

                                Table 11. Non-Monetary Impact

               Finding                    Impact Category            Amount
                 Two             Misallocation of Costs              $3,998,602


                                 Total                               $3,998,602




                                             21
Management of Special Studies                              CRR-AR-10-002




                       APPENDIX G: MANAGEMENT’S COMMENTS




                                      22
Management of Special Studies        CRR-AR-10-002




                                23
Management of Special Studies        CRR-AR-10-002




                                24
